                .   -                     -.
                                                                                       -..
                1                                                                  a
                                                                                                                             .--- '




            I

            i                                                              NATIONAL.SCIENCE FOUNDATION
        1                                                                   OFFICE OF INSPECTOR GENERAL
                                                                             OFFICE OF INVESTIGATIONS

        I
        I
                                                                         CLOSEOUT MEMORANDUM



    I

    I

                                 An internal review' of the government travel credit card program by the National Science
                                 Foundation (NSF) Office of Inspector General (OIG) revealed the possibility of unauthorized use
I                                of the government credit card.

                                                                     '
                                 A review of an NSF employee's travel card activity revealed eleven inappropriate charges
                                 totaling $546.72. The charges included several local ATM withdrawals, parking and restaurant


                                 The employee was provided the opportunity to discuss the unauthorized use of the government
                                 credit card and explained that the travel card was used to pay for local transportation associated
                                 with official business. The Employee fbrther explained that an Administrative Officer (AO)
                                 provided counseling regarding use of the travel card at which time the employee discontinued
                                 any M e r use of the caid.

                                  The total amount for travel card charges that occurred outside the authorized travel period was

                                 by the Administrative Officer.

                                 Accordingly, this case is closed.




                        NSF OIG Fom 2 (1 1/02)
